           MEDICARE SECONDARY PAYER PROVISION-
                WORKING AGED IN MISSOURI


                        JULY, 1986
                 CONTROL iP-07-86-000




REGION VII
                                     OFFICE OF ANALYSIS AND
KANSAS CITY, MISSOURI
                                       INSPECTIONS
                                     OFFICE OF INSPECTOR GENERAL
                                     DEPARTMENT OF HEALTH AND
                                        HUMAN SERVICES
                     ..............................
                          .........................
                            ......................
                             .....................
                                     ..............
                         . . . . . . . . . . . . . . . . . . . . . . . . . .




                              CONTENTS




                                                                               Page

  I. EXECUTIVE SUMMY

 II. INTRODUCTION


III. SCOPE OF REVIEW

 IV. FINDINGS AND RECOMMENDATIONS


 V. TABLE SUMMIZING DOLLAR EFFECT
    OF REPORTED FINDINGS


VI. SUMMRY OF COMMENTS

    SOLICITED AND RESPONSES

                      EXECUTIVE SUMMARY

The Kansas City Regional Office, Office of Analysis and

Inspections (OAI) conducted a reg ional program inspection of
Medicare secondary payer prov is ions as they relate to working
aged under the Tax Equity and Fiscal Responsibility Act of 1982.
Intermediary data indicated there are 160 short-term hospitals 

Missour i. Our inspection focused on the 30 largest hospitals

since Intermediary data indicated that 73 percent of the working

aged they had identified were in these hospitals. No review for
working aged was made on the remaining 130 hospitals, where 27

percent of the working aged had been identified by the

Intermediary.
Four hospitals in Missouri were selected for review in conjunc­
tion with the inspection on working    aged. Blue Cross Hospital
Serv ices, Inc., of Missour i prepared for our off ice a listing of
all inpatient benef iciar ies in these hospitals who were aged
65-69 in 1983-1984. The Intermediary identified 3830 benefi­
ciaries with 5789 discharges. A randomly selected sample of
beneficiaries from each hospital were identified. The total of
300 beneficiaries generated a total of 449 discharges at the four
hospitals. A total of 11 beneficiaries or their spouses with a
total of 13 discharges were identified as being working aged
within the TEFRA definition.
Comparative data indicated that the four sample hospitals and the

30 hospitals in the universe had similar character istics in func­

tional areas reviewed. These four hospitals, therefore, would be

considered representative of the 30 hospitals for purposes of

projecting an overpayment.


Based on our inspection cover ing   1983-1984, a projected over­
payment of $5, 023, 759 was made by the Medicare program as the
pr imary payer. Employer group health plans should have been the
pr imary payer with Medicare being billed as the secondary payer.
We recommend that the HCFA Reg ional Off ice require the Missour 

Medicare contractors to implement current guidelines according to

Federal regulations, to ensure correct Medicare payments and to

initiate recovery action for all improper payments, retroactive

to January 1, 1983.

Comments were received from HCFA, the Intermediary, and the two

Carriers servicing Medicare beneficiaries in   Missouri.These
comments indicated a general agreement with the findings and
recommendations contained in the    report. All
                                              responses
demonstrated a recognition that problems existed during the
1983-1984 review period. HCFA and the contractors have taken
steps to implement the recommendations, in whole or in part,
wi thin the limits of budgetary constraints. Acknowledgment was
made that improvement is needed and the responses indicated HCFA
and the contractors are working to improve procedures for the

identification and processing of claims related to working aged.



                           -1­

                             II.	   INTRODUCTION

This report details the findings and recommendations that

resulted from the program inspection of Medicare Secondary Payer
provisions--Working Aged in Missouri-- conducted by the Office of
Analysis and Inspections, Off ice of Inspector General, Kansas
City Regional Office.
The inspection program was developed and implemented by the

Office of Analysis and Inspections. The inspections are a major

function of OAI as part of its responsibility to minimize the

opportuni ty for fraud, abuse, and waste in DHHS programs.

Specifically, program inspections are reviews which:

    (1 )    Examine specific program operations and/or reimbursement
            pOlicies and the manner in which they are implemented to
            determine if they are contributing to fraud, abuse or
            was te ,   and
    (2 )    Demonstrate the significance of the inefficient or inef­
            fective policy or method of implementation and recommend
            changes which would improve program administration,
            contribute to ensuring proper services are provided to
            eligible beneficiaries and/or save program dollars.
The format of this program inspection report is of an exception
type in that, only areas requiring improvement are presented.
No conclusions regarding the overall level of an organization ' s
performance should be drawn solely from this report.

                             III.   SCOPE OF REVIEW
The Tax Equity and Fiscal Responsibility Act of 1982, provided
that Medicare would be the secondary payer in cases where medical
care can be paid by an Employer Group Health                 Plan.
                                                     This would
affect those beneficiaries or their spouses, who were working,
were aged 65-69 and were a member of a PIan cover ing those per­
sons.
Federal Regulations implementing this law were published 

42 CFR 405. 340-344 on April 13, 1983. The regulations state
that, effective for services furnished after 1982, Medicare bene­
fits (Part A and B) are secondary to benefits payable by an
employer group health plan for any month in which an individual
age 65 through 69:
    (1 )	   Is entitled to Part A benefits.

    (2 )	   Is either employed or the spouse is employed and covered
            under an employer group heal th          plan.
    (3 )	   The employer has 20 or more            employees.

                                      -2­

Medicare will be primary payer        where:
     (1 )	   The individual is not covered under an employer group
             health plan including refusal to accept the employer ' s
             plan.
    (2 )	    Payment is not applicable by an employer group health
             pIan for Medicare covered services.
    ( 3)	    Secondary payments will be made to supplement the pri­
             mary benef itspaid by the employer group health plan
             that plan pays only a portion of the charge for the ser­
               ices.
This program inspection was conducted to determine if HCFA and

its Medicare contractors were correctly identifying Medicare

secondary payer situations. A listing of beneficiaries furnished

by the Intermediary contained 3830 beneficiaries, aged 65 through
69, having 5789 discharges, who had been inpatients at four
Missouri hospitals. This listing was used to obtain a randomly
selected sample of 300 benef ic iar ies, aged 65 through 69, who had
generated 449 discharges.
Onsite visits were made to four Missouri hospitals to obtain

admission and payment data. In addition, beneficiary history

listings were obtained on the individ als in the sample who had

services billed to Medicare during the review period.

Beneficiary histories were obtained from Blue Cross Hospital

Services, Inc., of Missouri, General American Life Insurance
Company and Blue Shield of Kansas       City.
                                         Eleven beneficiaries or
their spouses generating 13 discharges were identified as working

aged within the definition in TEFRA.

Based on data from the Intermediary there are 160 short term
hospitals in Missouri.  Intermediary data also indicated that
percent of the working aged were identified in the 30 largest

hospi tals. Our inspection involved four of the 30 hospitals

within this group and the projected overpayment is based on these

30 hospitals. Although 27 percent of the working aged identified

by the Intermediary were in hospitals under 300 beds, no attempt

was made in this report to project an overpayment to these
smaller hospi        tals.




                               -3­

                   IV .   FINDINGS AND RECOMMENDATIONS
 indinq 1


Medicare Paid as Primary Payer for Working Aged


The inspection found that out of 300 beneficiaries generating 449

discharges, aged 65-69, in our sample, 11 beneficiaries having 13

hospital discharges were working or their spouses were working

under employer group health plans. These 13 discharges from the

11 beneficiaries had not been identified by the Intermediary or

hospi tal as working aged before payment had been made.


The 300 beneficiaries represented 449 discharges for the four

hospitals in the    sample.
                          The sample of beneficiaries/discharges
was obtained from a universe of 3830 beneficiaries with 5789

hospi tal   discharges.
Comparative data was obtained and analyzed for the four sample
hospitals and the 30 hospitals in the     universe.
                                                 Functional areas
reviewed indicated that the sample hospitals and the universe of
hospitals compared similarly in every     category.
                                                 Therefore, these
four hospitals would be considered representative of the
hospitals for purposes of projecting an overpayment.
Based on the data obtained from the Medicare contractors, a
Medicare Part A and B overpayment of $40, 855 is calculated for
services rendered related to these 13 hospi tal discharges.
Projecting the sample to the entire population, aged 65 through
69, in all 30 hospitals for the review period for whom services
were billed, overpayments of $5, 023, 759 were made by the Medicare
program.
Recommenda t ion
We recommend that HCFA instruct the Medicare contractors indi­
cated in this report to review all services provided resulting
from working aged coverage since January 1983. Applicable reco­
very should be made from third party payers or from providers.
Finding 2


Greater Detection Capability Needed By Intermediary Secondary

Payer Unit

The Intermediary had an established Secondary Payer Unit when the
program inspection was conducted. The Unit had identified one of
the beneficiaries as a Medicare secondary payer situation after
payment had been made. With respect to this beneficiary, the
inspection team identified three addi tional periods of hospital 

zation not identified by the Secondary Payer Unit.




                               -4­

Recommenda t ion
We recommend that HCFA instruct the Medicare contractors to

establish or improve existing Secondary Payer Units to more

effectively identify Medicare secondary payer situations

 invol v ing working aged.
Finding 3


 Improvement Needed By Hospitals in Obtaining Working Aged

 Information
Hospitals are not adequately obtaining critical information 

order to identify working aged beneficiaries or their spouses.
Def ic ienc ies noted were:


          (1 )	    Lack of any information regarding employment    status.
          (2 )	    Date as to when employee or spouse  retired.    This infor­
                   mation would give the validity of the time period
                   covered under EGHP.
          ( 3 )	   Age of the spouse would have indicated that the spouse
                   was aged 65 and over and could have quaI if   ied as working
                   aged.
          (4 )	    Information obtained on other insurance or employment
                   related insurance forms is not being transferred to the
                   billing form submitted to the Intermediary. The

                   Intermediary is thereby unaware of possible EGHP

                   cover age.
Recommenda t ion
HCFA should ensure that Medicare contractors assist hospitals in

obtaining essential information to identify working aged them­

selves or that sufficient information is given Intermediaries to

identify working aged.

Finding



Lack of Coordination Between Intermediary and Carriers on

Exchange of Information


Intermediary and Carrier guidelines were reviewed to determine
the extent of coordination for pertinent information on working
aged.  Review of the contractors records indicates that infor­
mation on working aged available to the Intermediary may have
assisted in preventing payment being made by the Carrier.




                                     -5­

Recommendation
HCFA should assure necessary exchange of potential working aged

data among contractors which would prevent overpayments from

being made.





                           -6­

            TABLE SUMMIZ ING DOLLAR EFFECT OF REPORTED FINDING

                         Overpayment projection of

                       Medicare Secondary provision


Medicare                       Amount Paid              Projected
Contractor                      in Sample              Overpayment

Blue Cross Hospital
Serv ice,   Inc.,   of Mo.      $29, 792                $3, 663, 337

General American Life

Insurance Company                      600                   73, 782

Blue Shield of
Kansas City                            463                 286 640

                                $40, 855                $5, 023, 759





                                -7­

                       VI. SUMMY OF    COMMENTS.
                         SOLICITED AND RESPONSES


Commen ts were received from the Health Care Financ   ing
Administration as well as the Part A Intermediary and two Part B

Carriers servicing Missouri.

Health Care Financinq Administration


HCFA commented that the recommendations contained in the report
are appropriate for the review per iod, which was 1983-1984. HCFA
indicated the var ious steps that have been taken to more effec­
tively implement the working aged provisions of the Medicare law.
This includes: (1) the recovery of funds from known employer
group health plans, (2) the preparation of a mass mailing to
benef iciaries to obtain MSP information, (3) educational efforts
particularly with hospitals and, (4) preparation of lists of
beneficiaries covered by EGHP to be shared with Carriers.
Blue Shield of Kansas City


The Carrier is concentrating its Medicare Secondary Payer activi­
ties on Fiscal Year 1986 , for which it has goals to meet. The
Carr ier expressed reluctance to pursue any pr ior MSP/EGHP
si tuations because of lack of funding to conduct any necessary
investigations.   In fact, if the Intermediary were to compile a
listing of beneficiaries with known EGHP coverage, it would not
be utilized anyway by the Carrier because of a lack of funding to
conduct the required investigations.
General Amer ican Life Insurance Company


The Carrier commented that the draft report probably gives a
reasonably accurate picture of the MSP--Working Aged situation
during the 1983-1984 review period. The Carrier stated that the
1984 national MSP workshop and the 1985 regional MSP workshop
have had a significant impact upon improving MSP program activi­
ties.  The Carrier sees continued improvement in the MSP area
because of better procedures and periodic workshops, both at the
national and regional levels.




                           -8­

Blue Cross Hospital Service, Inc., of Missouri


The Intermediary recognizes the problem that st ill exists with
respect to MSP working aged as evidenced by the large number of
claims being processed by Medicare as pr imary rather than as
secondary payer. The MSP unit is being updated to enable it to
have automated processing capabilities.
The Intermediary is planning to use a benef iciary questionnaire
to detect MSP/EGHP situations dating back to 1983.   Also, infor­
mation obtained through suspension of claims because of Y-Trailer
data will be utilized to identify potential MSP working aged
cases.  The Intermediary is aware of the need for better
Intermediary/Carrier communication. Lists of benef ic iar ies will
be made available to the Carr ier for their use in developing
potential MSP cases with EGHP involvement.




                          -9­

                                            &.




                  DEPARTMENT OF HEALTH           HUMAN SERVICES

.f' '110

                                                                                        Memorandum
                     June " 1986

     Date:
                     Gene Hyde	                                                       Refer to:
     From:	          Regional Administrator                                          PT AB:JOS

                     HCF A, Kanas City                                               2.683

      Subject:	      Draft Report on Medicare Secondary Payer (MSP)      Working Aged in Missouri

      To:	           Director, Office of Inspetor General

                     Office of Health Financing Integrity

                     1100 Main Street

                      O. Box 26248
                     Kanas City, Missouri   64196




                    Attached are copies of contractors ' replies to the findings and recommendations
                    in your report. In   general, I believe the recommendations to be appropriate
                    the MSP situation as it existed during the period    covered in your report, 1983­
                    1984. The recommendations are not fully appropriate to the situation as it exists
                    now in 1986. This opinion is baed on the belief that 1) some of the
                    recommendations have been implemented in full or in part since 1983 and 2)
                    budgetary constraints do not presently permit extensive MSP development on
                    caes prior to 1984. Following are speific comments on your recommendations,
                    in the order these appear in your report.
                    Recommendation
                    You recommend "tht      HCFA intruct     the Medicare contractors   indicated in this
                    report to review all services provided resulting from working aged coverage
                    since January 1983. " Th intent of this statement is interpreted to mean
                    contractors should review Medicare reimbursements for medical services
                    covered lnder employer group health plan.      You also recommend that applicable
                    recovery should be made from third part     payersor from providers.
                    Resoose to Recommendation 1

                    Medicae contractors are recovering funds where it is known that coverage also
                    exists under employer group health plans.    However, this activity is costly and is
                    currently funded at a level designedto meet MSP goals established for 1986. In
                    addition to funding impediments there is  a problem of identification, which is
                    dicussed in the response below. The intermediary targeted by your report
                    intends to pursue recoveries back to 1983 after it has the benefit of automated
                    MSP processing and the replies to beneficiary questionnaires have been compared
                    to information in    prior history. These two actions are now expected to be
                    operational in late June, 1986. Further information on this point may be found in
                    the letter dated May 14, 1986, from Blue Cross (copy attached).

                                                                                        RECEIVED
                                                                                           JUN 1
                                                                                             OFFICE OF.
                                                                                              r.OR G        RAC
Page 2





Recommendation 2


You recommend that HCF A      instruct the Medicare contractors to establish      or
improve existing Secondary Payer Units to    more effectively identify Medicare
secondary payer situations involving working aged. This recommendation springs
from the finding that the intermediary apparently effectuated MSP recovery in
one instance but failed to identify three additional   periods of hospitalization for
this same beneficiary which were covered at the    time under an employer group
heal th plan.



Response to Recommendation 2
HCF A is   preparing a mass mailng to beneficiaries     to elicit   MSP information.
The replies wil be returned to one point in the country, the results tabulated and
specific beneficiary data communicated to the appropriate contractor. The
contractor wil then be required to apply this information to beneficiary history
and to make recoveries where overpayments are discovered. This activity is
expected to begin within a few weeks. After this program becomes operational
it should also serve to prevent future Medicare overpayments.
In the absence of automated programs which allow the application of known !\,1SP
information to subsequent claims/bils, the contractor must depend on the
provider of services to identify MSP cases on each bil              or
                                                                claim. The
intermediary described in your report has noted that it receives inconsistent
information from providers and, therefore, is implementing use of a beneficiary
questionnaire. The results of this       questionnaire wil be incorporated into
automated systems so as to identify. all other MSP situations on the beneficiary
account. When    operational, this system should correct the problem described in
your report.

Recommendation 3


You recommend that HCF A ensure that Medicare contractors assist hospitals in
obtaining essential information to identify working aged individuals.
Response to Recommendation 3
Considerable educational effort has been  made by contractors since 1983 and
most of this has been directed to hospitals. However, due to staff turnover in
the biling and admitting departments, hospitals may easily and quickly return to
poor performance in identifying MSP situations which, presently, require
beneficiary co-operation at least one or more times in the identification process.
Page 3





HCF A is preparing to implement data exchange agreements with workmen

compensation agencies. While these are intended to result in obtaining leads to
MSP situations involving workmen s compensation, this project wil concurrently
provide additional leads to working aged cases. In this way, HCFA wil have one
more alternative to beneficiary reporting by which to identify working        aged
situations. These agreements are under negotiation now and    are expected to be
operationally productive before October 1, 1986.
Recommendation 4


HCF A should assure necessary exchange of potential working aged data among
contractors which would prevent overpayments from being made.

Response to Recommendation 4
The intermediary reports that a list is being compiled of beneficiaries who have
EGHP coverage. This wil be sent to the carriers and should serve to prevent
recurrence of the problem you have noted.
Also, HCF   A is presently   assessing a demonstration project in another   region,
wherein all MSP information is maintained by one intermediary and all other
contractors in that state tap into this repository via query processes. If
successful, HCF A may mandate implementation of similar procedures in other
regions.



                                                Iv.


                                         Gene Hyde

Attachment
          ..                                                          .. ;'.
                                                                   -..:(..;..
                                                                         ....       ,';
                                                                            ....' .-..
                                                                                     j     "-,
                                                                                           -'-
                                                                                        :':-
                                                                                          --


Blue Crss
Blue Shield
of   Ka        City




                              3637 Broadway

                                O. Box 169                  General Office 816/561- 2300
                              Kansas City, Missouri 64141

 May 19, 1986





 William E. Fisher, Chief

 Policy & Technical Assistance Branch

 Division of Program Operations

 Health Care Financing Administration

 Federal Office Building

 601 East 12th Street

 Kansas City, Missouri 64106


 Dear Mr. Fisher:
At you request, below please find our comments on the OIG MSP

 report:

     Finding

     Our MSP area is currently funded at a level designed to
     meet the MSP goals established for the Fiscal 1986 year.
     Consequently, our efforts are currently being directed at
     savings on claims processed during the current fiscal year.
     Investigation of services rendered since January 1983 would
     be impossible given current funding levels. Additionally,
     many carrier health insurance contracts have timely filing



     claim.
     provisions which may prohibit reimbursement of old claims.
     It is possible that the investigation could be completed,
     only to find out that the contract prohibits payment of the


     Finding
     Once again, lack of adequate funding has prevented us from

     utilizing the experience of the intermediary investigations

     for MSP.


If you have any questions on the above information, please

contact me.


Sincerely,

Ro     r E            Crain                                            . 0 -:
                                                                         r,
                                                                             w
Vice President, Claims
                                                 I, , 0
                                                                        -:. :;:.
                                                                            -\;"
                                                                      ; " . .--..'   (-' ..
                                                                                          .. ",




                       Medicae / Geeral
                         Par     B /      Amenca
                                                                    O, Box 505

                                                                  St. Louis, MO 63166
                                                                  Phone: (314) 848880
                                                                  Toll free: 1-8392- 3070
                                May 15, 1986





Mr. William E. Fischer, Chief

Policy & Technical Assistance Branch

Division of Program Operations

Federal Office Building, Room 225

601 East 12th Street
Kansas Ci ty, MO 64106                                                               c: 


                                                                                        :-. v



                                                                                                  c."-"?


                                RE:    PTAB: JOS
                                       2. 680


Dear Mr. Fischer:


Thank you for the opportunity to comment on the OIG draft report of

findings concerning Medicare Secondary Payer - Working Aged in

Missouri.
The OIG study was based on a period when , admittedly, the MSP program
was not doing well. This program began to pick up after the 1984
natio l MSP workshops, and we feel it has been improving steadily
since. The 1985 workshop at the Regional Office helped the program
to progress. At the 1986 MSP workshops, the indication was that
HCFA was more than pleased with the results achieved to date.
a study were made for the current period , the results would not
show the MSP- Working Aged program to be working perfectly, but it
certainly would show the program to be much more effective than it
was in 1983/1984 , the period of this study.

We reviewed the study. It probably provides a reasonably accurate
picture of the MSP- Working Aged situation during the 1983- 1984
period. We are not sure of the value of a study that shows how
this program was functioning two to three years ago - in it'
infancy, so to speak.




       GENERAL AMERICAN LIFE INSURANCE COMPANY. ST. LOUIS. MISSOURI 63166
                             May 15, 1986                      Page 2





We feel that we, along with all other carriers have made significant

progress in the MSP program during the last two years. We continue

to work at improving our procedures and in becoming more effective.

Periodic regional and national workshops have played a very useful

part in this improvement. The " recommendations" in the report have

been implemented already in our opinion.



                            Sincerely yours,





                                ford A
                            . nager
                                       r;l  unen
                            Medicare Benefits II



CAK:mtd
                                                                                             " . \.' )
                                                                                                   . -: . :"'
                                                                                             . .- --
                                                                                        . "! "




                                                                                                         PlJ-13

  Blue Cross.	                                                                     Medicare


  Federal Medicare          44 Forest Park
  Intermediary              St. Louis, Missouri 63108- 2292


                                                    May 14, 1986




Heal th   Cae Finacing Administration Reional Office
ATI: William         E. Fischer, Chief PIAB - DPO
Rom 225
                                                                                                    l \

601 E. 12th Street	
Kasas City, Missouri 64106

RE:	   OIG Draft Report of Meicare Secondar Payer provisions ­
       Working Aged in Missouri


Dear Mr. Fischer:


This letter is in response to the abve- referenced                       sumtion concerning
the processing of working aged claims by the Meicare                           Part A Intermiar
and the Part B contractors in Missouri.


Ou office has thoroughly reviewed the findings and recomrndations of
the Kasas City Regional Office, Office of Analysis and Inspeions
(OAI) on MSP provisions regarding claim involving the working aged
and TEFRA, 1982. We are aware that a large numr of claims are being
processed by Meicare as primary  instead of secondary payer. Ou office
is also aware of the problem         tht
                                  exists in the identification of claims
involving employer group health plan coverage by both the                         Intermiar
and the provider      conity.CUrently, our MSP Unit is still operating
on a maual basis. A target date of June 1, 1986 has ben set in which
we will have automated processing capailities which will allow us rrre
time to review claim on a prepaid basis for possible employer group health
plan involvement. It is also apparent to us tht membrs of the provider
comity    are inconsistent in gathering and relaying MSP informtion to
our office due to      incorrec or lack of informtion.
                                                     Conseqently, Meicare
paymnt is being made for som services for which Meicare paymnt should
be secondar.
For these reasons, our office is considering a new approach which would
reqire tht the Intermiar      get verification from the beneficiar for
claim in  which primry payer responsibility has not yet       established
(the source of this verification will be the claims suspended due to a
                                                                                 be
 y-trailer suspect" error message during the processing function). The
informtion will then be relayed to the providers of service who will be
instrcted to anotate their   records accordingly and bill the appropriate
payer for future billing       purses.

                                     An Equal Opportunity Employer
                                Blue Cross Health Services, Inc. of Missouri
            Beneficiary Services: 314/658-4351 Provider Settlement: 314/658-4315
..




     , Mr. William E. Fischer

       May 14, 1986

       Page 2





      The following is our response to the findings and recomndations of      the
      OAI . OU plans for the areas in improvemnt as cited by the OAI are
      stated in these responses.

      Response to the   recomndations on Finding   #1:

           After establishing the beneficiaries with EGHP coverage though
           the questionnire,  (see response to recomndations for Findings 2
           and 3) the MSP Unit will research back to 1983 for claims paid by
           Meicare for which reimursement from the       EG will
                                                               be sought.

      Response to the recorrndations on Findigs #2 and #3:

           The MSP Unit has discovered, though its observation of provider

           submitted data,   wht appears to be an inconsistency    arng all
           providers to correctly and routinely collect and report primary
           payer informtion. It is for this reason       tht  the MSP Unit has
           develope a questionnire that covers all primary payer situations.
           Using   claimsuspended as a result of y-trailer informtion on the
           inpatient/outpatient query replies, the MSP Unit will send this

           questionnaire directly to the beneficiary if the questionnire has

           not ben submi'C'Cea previ6usly. --The ' response to the questionnire
           will be filed into a report on a personal computer. Each subseqent
           claim record with a y-trailer will then be suspended and reviewed
                                                                            prima
           payer other   th Meicare, theretured
           against the personal computer report. If the report shows a

           along with a printout of the
                                            claim will be deleted and  retured
                                                     questionnaire from the
           beeficiar   and will be   retured to   the provider with instrctions
           to:
                 Bill the identified primary payer and then
                 bills showing this informtion and,
                                                               resubt the
                 Keep the printout in their files for future billing reference.


      The date on which this informtion is submitted to the provider will
      also be recorded on another report. Subseqent claim billed to   Meicare
      as prima when the provider has previous I y be inform   of Meicare
      status as secondar will be noted in the file and the provider will be
      advised    tht
                   this informtion was previously submitted to them. Subseqent
      and repeted billings of Medicare as primary by the provider which is aware
      tht Meicare is secondary will result in an MSP on- site audit of that
      provider.  Records of this will also be forwarded to the Health Cae
      Fincing Admistration Regional Office to mae them aware of the
      providers displaying inappropriate billing procedures and lack of

      cooperation with our office. Any future action to correct the providers

      will be decided at   thtpoint.

                                                                       (.




Mr. William E. Fischer

May 14, 1986

Page 3





Response to the   recommdations on Finding #4:
      The MSP Unit is aware of thenee for better commication
      betwen Intermdiar and carrier. At   present tim, a list is
      being comiled of beneficiaries tht have EGHP coverage. This
      list will be sent to General Amrican Life      Insurance Compy
      and Kansas City Blue Cross/Blue Shield.

We are optimstic that this approach should reduce the      numr of claim
curently processed   by Medicare as   prima by increasing our capaility
to detec secondar    payer claim on a prepay basis.

                                        Sincerely,


                                        Ro                ='iu
                                                          ;A.
                                        Direcor, Contract ldfrst
                                               G. Davis         MY



                                        Governnt Progam Division

RGD: DS : SIM
,.




     Blue Crss,	                                                                                  Medicare

     Federal Medicare	                      4444 Forest Park
     Intermediary                           St. Louis, Missouri 63108- 2292	                                 FO APPROVE
                                                                                                             OM NO. 0938-0214




      RE:    Meicare Seond                  Payer Q.estionnire

      De Meicae Beneficiar:
      As you may well be awae by no,                      Meicae no longer maes
                                                       first (primry)
      payrt                meical services rendered to Mecare
              for all hospital or
      beficiaries. Prim paymt for som serices may be the responsibility
      of anther source,            such as:

                    AutOlbile, liability, no fault or meical insurance
                    Erloyer group health plan coverage for beeficiaries
                    betw    the ages of 65
                    uner the age of 70
                                                       th
                                               69 or thouh their spouses

                    Erloyer group health plan covrage for beeficiaries
                    entitled to Meicae solely                  on the basis of end stage
                    renl disease
                    Workers   Contion beefits
                    Black Lug beefits

                    Veteran Adstration befits

      Q. office  has        be inonn tht one (or possibly rore) of the primry
      payers listed abve may               have    th responsibility of mag first (primary)
      th attached MeicaeSend        nes.
      paymt for you hospital an meic-.al      Therefore, we
                                 Payer Q.stionnire an ask
                                                                                           are sening
                                                                                           for your
      full coration in coleting all    qustions                              tht may apply to you.
      Please retur this form to my attetion
      tht is enclosed for your conveniene. in th                                businss        reply envelop

      Q. office       will then enter your              inormtion into ou record an advise
      th providers of serice                 of ths      inormtion so tht thy ca bill the
      appropriate pay            first.




                                            4351
                                           An Equal Opportunity Employer
                                      Blue Cross Health Services, Inc, of Missouri

              Beneficiary Services: 314/658-                           Provider Settlement: 314/658- 4315

RE: Medicare      Secondary Payer     Questionnire
Page 2




If you have received hospital or          meical                 services recently, you may
have already ben asked                          these questions by the hospital personnel.
We appreciate any cooperation that you may have given                         to the hospital
personnel regarding this matter. However, we still reqest that you
complete this questionnire and return it to our office at your earliest
convenience.
Should you have any questions regarding this questionnire, please                     feel
free to contact our office.


                                                 Sincerely,



                                                Meicare Secondary        Payer Unit
                                                Governt Programs
                                                Contract Admistration
..




        Blue Crss,                                                                                             Medicare

        Federal Medicare                         4444 Forest Park                                                          FORM APPROVED
        Intermediary                             St. Louis, Missouri 63108- 2292
                                                                                                                           OM NO. 0938-0214




                         QUETIOOIRE FOR MEDICA SECARY PAYE INFRMTIOO


     S&:IOO I.
     Atm, LIABILITY,          NO FAULT,       MEICA, MARACTICE COVEGE

         Date of accident

         City, State

         Attorney (Yes/No) If yes,                 corlete 1-4
           1. Nam

           2. Address
           3. City, State, Zip Code
           4. Telephone
     D. Has  claim      ben filed under your insurance? (Yes                                  No)
         If yes, cOlTlete 1-6
           1. Nam of Insurane

           2. Addess

           3.
           4. City, State, Zip Code
              Telephone
           5. Agent
           6. Policy #
           7. Claim Numr
     E. Has claim be filed under other pay s inurance? (Yes/No)
         If yes, comlete 1-9
           1. Nam of Insurance

           2. Adress

           3.
           4. City, State, Zip Code
              Telephone
           5. Agent
           6. Claim Nur
           7. Insured Pary
           8. Policy Nur
           9. Claim Nurr
     F. Have you already recivedsettlemt?                                  (Yes/No) If yes,
     G. Wht was settlemnt arunt?

     H. If yes to (F. ),                         settlemt to acc dent
                                   have you applied any of your
         relatedexes,   either hospital or meical? (Yes/No)
           1. If yes, subt                  ' caelled
                                          copies of receipts,                                    checks, nDney orders,
                etc. to verify paymts.




                                                 An Equal Opportunity Employer
                                          Blue Cross' Health   Services, Inc, of Missouri

                 Beneficiarv Services:   314/658-4351                         Prnvirt"r C:"ttl"m"nt' ' 'IA1,:c;ILII':1C

.,          ""




             Questionnire fer     Meicare Secondary     Payer   Informtion
            Page 2



             I. related expnses, either hospital or
                   If no to (F. ), please explain why you did not apply settlement to accident
                                                   medical.
            J.                        abut
                   Are you still undecided          whether or not to file a claim? (Yes/No)
            K. Did accident occur in place of residence?
                     1. Is residence awed by you? (Yes/No)         (Yes/No) If yes,

                         If no, did you file a claim for your injuries? (Yes/No)         If yes,
                     2. Nam of ONer ' s Insurance
                     3. Address
                     4. City, State, Zip Code
                     5. Agent Name
                     6. Policy Numr
                     7. Claim Numr
                   If you are also   betwee the ages   of 65 and 69, please be sure to corrlete
                   Setion I I

            SECION II.
            EMIDYER GROUP
            SPOUSES UNER 70)
                                HETH PLA COVERAGE (BENICIARES         BE'      65-69 AN THEIR


            A. Are     you errloyed? (Yes/No) If yes,
            B. Dos your errloyer errloy 20 or rore people?            (Yes/No) If yes,
            C. Wht is your present age?

                 1. Nam of Enloyer
                    2. Address of Emloyer

                   , 3. City,State, Zip Code
                    4. Group Nam
                    5. Group
                    6. PolicyNumr

                              Nurr
                    7. Telephone Numr
            D. Are                 Par B Meicae only? (Yes/No)
                      you entitled to
            E. Is your sIXuse errloyed? (Yes/No) If yes,
            F. Dos his/her errloyer errloy 20 or rore peple?             (Yes/No) If yes,
            G. Wht is his/her present age?
                 1. Nam of Emloyer

                     2. Address of Emloyer

                     3. City, State, Zip Code
                 i" 4   Group Nam
     0tlJ
                     5. Group Nurr

                     6. Policy Numr
                     7. Telephone Numr
            H. Is he/she     entitled to Part B        care only? (Yes   No)


            SECI      III.
            EMYER GROUP HETH PLA COVEGE FOR BENFICIARES ENITLD TO MEICA
            SOLEY ON TH BAIS OF END STAGE         :R    DISEAE

                  Are you employed?     (Yes/No) If yes,

..



      Questionnire f6i" 
            lEicare Seond Payer Informtion
      Page 3




          2. Addressof Erloyer
                 1. Nam
          3. City, State, Zip Code
          4. Group Nam
          5. Group Numr
          6.  Policy Numr
          7. Telephone
                 1. Par A
     B. Effecive Date
                 2.
                        Nur
                                     of Meicare Entitlemt
                        First m:mth in which you
                        trainng
                                                              Part B
                                                         staed reglar course of dialysis
                 3. Betw the           month in       whch you staed a reglar course of dialysis
                        traing (#2. )  and the Par A/B Meicae entitlemt effective
                        dates (#1.), did you receive:
                             1. Self Dialysis Traing (Yes/No)

                                 If yes, state month

                              Tranplant (Yes/No)

                             2. Real
                                 I f yes, state
                                      IOnth

            Is this your first period of entitlemt to Meicare solely on the basis
            of end stage renl disease? (Yes/No) If no, list all prior periods of
            enti tlemnt.
            From	           Part A                            From Part 

                            Par A                             To     Part B


            From	           Part A                            From Part 

                            Par A                             To   Par B

     D. Have  you            be
                       errloyed previously but are no longer working?
         If yes, give date/year of last IOnth worked.
                                                                                           (Yes/No)
     E. As 	of this writing, have you attained the age of 65?



     SEXIOO IV.
     IDRK CGENSATIOO COVEGE

     A. Date of accident
     B. City, State
     C. Attorney? (Yes No)               If yes, corrlete 1-4
               1. Nam

          2.      Address
          3. City, State, Z p Code
          4.  Telephone
     D. Have you filed a c
          1. Na
                                       a1m 	   or your

                                                           Jur es?     Yes No) If yes,   conlete 1-9
          2. Addressof Insurance
          3.
          4. City,   State, Z p Code
              Telephone Numr
          5. Agent
          6. Claim Numr
          7.          Numr
                       Pol icy
,,                                                ;'


     Questionnaire for Meicare Secondar                Payer Informtion
     Page 4


           8. Group Nam
           9. Group Numr
     E. Employer Informtion
           1. Nam

           2 . Address
          3. City, State, Zip Code
          4. Group Nam
          5. Group Numr
          6. Policy Numr
          7. Telephone Numr
     F. Nam  of Workers Compnsation Board

          1 . Address
          2. City, State, Zip Code
          3. Person Handling Claim
          4. Telephone Numr
     G. Have you already received settlement arunt? (Yes/No) If yes,
     H. What is settlemet arunt?
     I. related expeses, either hospital or meical? (Yes/No)
         If yes to (G. ), have you applied any of your settlement to accident

         If yes, submit copies of receipts, cancelled checks, money orders,

        etc. to verify paymnts.
     J. If no to (G. ), please explain why you did not apply settlemet to
        accident related expenses, either hospital or meical.
     K. Are you still undecided        aOut
                                      whether or not to file a claim with
        the State Worker Compnsation Board? (Yes/No)

        If you are between the ages of 65 and 69, please corrlete Section II.



     SECICN V.           l..   :.I   . r   "'.1               '1 _




     BUCK LUNG BEFITS THOUGH THE DEPARTM OF LAR


        Are you currently or have you ever been entitled to Black             Lug benefits?
         (Yes/No) If yes,
          1. Entitlement Date
                 Ternation Date
        If you are between the ages of 65 and 69, please              comlete Section II.

     SECION VI.       S:, ;
     VES AOINISTRTICN BENFITS
        Are you current1y or have you ever been entitled to Veterans Administration
        Benefits?  (Yes/No) If yes,
          1.  Entitlement Date

              Termination Date


         If you are between the ages of 65 and 69, please complete Section I
